HHS/OIG-Audit--"Review of the Administrative Cost Component of the Adjusted Community Rate Proposal, (A-14-97-00205)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administrative Cost Component of the Adjusted Community
Rate Proposal," (A-14-97-00205)
August 25, 1998
Complete Text of Report is available in PDF format
(121 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk based contracts with managed
care organizations (MCO). At one MCO we identified over $700,000 in administrative
costs that would be considered inappropriate and unallowable if considered in
light of the Medicare program's general principle of paying only reasonable
costs. Examples of such costs included political and charitable contributions.
Additional reviews are underway and preliminary results show similar problems
at other MCOs. The results of these reviews will be shared with the Health Care
Health Financing Administration in the coming months so that appropriate legislative
changes can be considered.